U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

March 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Moose Jooce, et al. v. Food and Drug Administration, et al., No. 20-1203

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 26,
2021, and placed on the docket on March 3, 2021. The government’s response is now due, after
one extension, on May 3, 2021. We respectfully request, under Rule 30.4 of the Rules of this Court,
a further extension of time to and including June 2, 2021, within which to file the government’s
response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

20-1203
MOOSE JOOCE, ET AL.
FOOD AND DRUG ADMINISTRATION, ET AL.

OLIVER J. DUNFORD
PACIFIC LEGAL FOUNDATION
4440 PGA BLVD.
STE. 307
PALM BEACH GARDENS, FL 33410
916-503-9060
ODUNFORD@PACIFICLEGAL.ORG
DAMIEN MICHAEL SCHIFF
PACIFIC LEGAL FOUNDATION
930 G. STREET
SACRAMENTO , CA 95814
916-419-7111
DMS@PACIFICLEGAL.ORG
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
J. GREGORY TROUTMAN
TROUTMAN LAW OFFICE, PLLC.
4205 SPRINGHURST BOULEVARD
SUITE 201
LOUISVILLE, KY 40241
502-412-9179
JGTATTY@YAHOO.COM

JONATHAN CALVIN WOOD
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
202-888-6881
JWOOD@PACIFICLEGAL.ORG

